                            CLOSEOUT FOR M-98060016

On 29 June 1998, a program officer' informed OIG of a possible violation of peer review.
A scientist2 had received an e-mail message from subject 1; a graduate student, that
requested information about an idea that appeared in the scientist's declined NSF proposal.4
Subject 1, whose research was similar to that of the scientist, said that the scientist's
proposal, which had been reviewed by subject 2 (subject 1's advisor),' contained an idea
that both subjects might be able to use. Subject 1 asked the scientist for advice about using
the idea, which subject 2 had shared with subject 1. The scientist was concerned that
subject 2, as a reviewer, had shared his proposal with subject 1.6

OIG called the scientist who explained that the idea was his and that it was novel.
However, he explained that he had been presenting his novel idea at meetings over the past
year and, as a result, by the time subject 2 received the proposal the scientist had shared the
idea broadly, receiving many calls .and requests from other researchers for more
information. The scientist explained that he asked subject 2 about the confidentiality issue,
but that he thought subject 2 had missed the point. However, the scientist requested to OIG
that this issue not jeopardize his future working relationship with subject 2.

OIG decided that, even if the scientist's suspicion about subject 2 as the reviewer of his
proposal was correct and subject 2 had shared with subject 1 the idea in the scientist's
proposal, there was no evidence that either subject intended to make use of the idea without
crediting it to the scientist. They had contacted the scientist and were open about their
intent to make use of the idea in the context of their research. Further, the idea was already
publicly available. OIG concluded that the potential harm to the working relationship
between the scientist and subject 2 that could result from any communication from OIG to
subject 2 outweighed any other benefits that might be gained by contacting the subjects
about the alleged breach of the confidentiality of peer review.

This inquiry is closed and no further action will be taken.

cc: Integrity, IG




                                        Footnotes Redacted




                                             Page 1 of 1
